                                                                             Report No. DODIG-2014-050




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              MARCH 31, 2014




                   Section 847 Ethics Requirements
                   for Senior Defense Officials Seeking
                   Employment with Defense Contractors




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                   the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                                        Fraud, Waste & Abuse

                                        HOTLINE
                                        Department of Defense
                                        d o d i g. m i l / h o t l i n e




For more information about whistleblower protection, please see the inside back cover.
                                       Results in Brief
                                       Section 847 Ethics Requirements for Senior Defense
                                       Officials Seeking Employment with Defense Contractors


March 31, 2014                                         Objective continued

Objective                                                     °° in which the written opinion was not provided to the
                                                                 requesting official or former official of the Department
Our objectives were to (1) address the                           of Defense by the appropriate ethics counselor within 30
central database and DoD IG oversight provisions                 days after the request for a written opinion.”
of Public Law 110-181, “The National Defense
Authorization Act for Fiscal Year 2008,” Section
847, “Requirements for Senior Department
                                                       Observations
of Defense Officials Seeking Employment                The DoD did not retain all required section 847 records in its
with Defense Contractors,” January 28, 2008;           designated central repository, the After Government Employment
(hereinafter referred to as “section 847”) (2)         Advice Repository (AGEAR).
address subsequent direction from the House
Armed Services Committee (HASC); and (3)               This occurred because the Department did not:
accordingly determine:
                                                          •	 implement the 2010 DoD Inspector General (IG) report
   •	 Whether written legal opinions required                recommendation to transfer historical records into AGEAR
      by section 847 were “being provided                    when the database became operational,
      and retained in accordance with the
                                                          •	 centrally supervise section 847 activities by its decentralized
      requirements of this section.” (Public Law
                                                             Components, and
      110-181, section 847 [b][2]).
                                                          •	 comply with Deputy Secretary guidance making AGEAR use
   •	 “The Department of Defense’s record of
                                                             mandatory as of January 1, 2012.
      compliance with section 847 of Public
      Law 110-181.” (HASC Report on the                As a result:
      National Defense Authorization Act For
      Fiscal Year 2013).                                  •	 The AGEAR database was incomplete with limited or no use
                                                             by specific DoD organizations with significant contracting
   •	 Quantitative data specified by the HASC,
                                                             activity.
      as follows:
                                                          •	 Individual section 847 records were located in multiple
       °° “the total number of opinions issued,
                                                             or decentralized locations, and in a number of cases were
       °° the total number of opinions retained              inaccurate, incomplete, and not readily accessible for
          in accordance with section 847,                    examination.

       °° any instances in which a request for
          a written opinion pursuant to section
                                                       Discussion
          847 lacked a corresponding written           On January 28, 2008, Public Law 110-181, “The National Defense
          opinion, or                                  Authorization Act for Fiscal Year 2008,” was enacted. Section 847 of
                                                       the law, “Requirements for Senior Department of Defense Officials


Visit us on the web at www.dodig.mil
                                                                            DODIG-2014-050 (Project No. D2013-D00SPO-0137.000) │ i
                  Seeking Employment with Defense Contractors,” required all officials covered by the law request
                  an ethics opinion from a DoD ethics counselor before starting employment with a DoD contractor.
                  Defense contractors are required to ensure that covered officials have received the required
                  opinions before employing them. The law’s recordkeeping requirement also mandated that DoD
                  retain in a “central database or repository for not less than 5 years”:

                      •	 All opinion requests pursuant to the section.

                      •	 All opinions provided pursuant to those requests.

                  On June 18, 2010, DoD IG report, Review of Department of Defense Compliance with Section 847 of
                  the National Defense Authorization Act for Fiscal Year 2008 (Report No. SPO-2010-003) concluded
                  that the DoD Office of General Counsel (OGC) Standards of Conduct Office (SOCO), had initiated
                  but not completed development and implementation of a central DoD repository to record
                  requests for written opinions and to store copies of opinion letters issued. The report
                  recommended that DoD OGC-SOCO:

                      •	 expeditiously develop the repository,

                      •	 obtain from DoD Components all requests and opinions rendered since section 847 became
                         law, and

                      •	 when the repository became operational, transfer all records into it.

                  The DoD OGC concurred with this report, explained they were working with information
                  technology experts to develop the AGEAR, and that after AGEAR rollout, they would transfer all
                  existing records into it.

                  On September 19, 2011, the Deputy Secretary of Defense announced that the Army OGC had
                  developed AGEAR to “capture and store opinions required under section 847;” designated the
                  Secretary of the Army as the DoD Executive Agent to operate, maintain, manage, and fund the
                  system; and made DoD-wide AGEAR use mandatory effective January 1, 2012.

                  On May 11, 2012, the HASC directed that DoD Office of Inspector General (OIG) “review
                  the database established pursuant to section 847 of Public Law 110-181,” report on DoD’s “record
                  of compliance with section 847 of Public Law 110-181,” and determine specified quantitative
                  data as previously noted in the “Objectives” section.

                  As indicated in the “Observation” section, the database was incomplete, and individual records
                  were located in multiple or decentralized locations, and were, in a number of cases, inaccurate,
                  incomplete, and not readily accessible or available for examination. Those conditions existed
                  because the Department did not centrally supervise section 847 compliance, implement the
                  2010 DoD IG report recommendation to transfer historical records into the AGEAR central
                  repository when the database became operational, or comply with the 2011 Deputy
                  Secretary’s directive that made DoD-wide AGEAR use mandatory as of January 1, 2012.




ii │ DODIG-2014-050 (Project No. D2013-D00SPO-0137.000)
The DoD OGC-SOCO acknowledged that DoD did not upload pre-existing records when AGEAR
became operational in 2010, and did not centrally supervise section 847 compliance by DoD’s
decentralized Components. In explanation, OGC-SOCO asserted that:

   •	 AGEAR roll out was an unfunded mandate during a time of critically constrained resources.

   •	 The Federal regulatory scheme decentralized the DoD ethics program and allowed records
      to be stored in multiple locations.

   •	 “In the ethics realm,” for personnel assigned outside of the Office of the Secretary of Defense,
      the role of the Secretary of Defense, and hence SOCO, is generally one of “policy setting,” not
      “central supervisory authority.”

   •	 The U.S. Office of Government Ethics (OGE) had designated 17 “independent” DoD
      Components responsible to OGE for performance, and subject to OGE audit.

In a follow-on meeting with senior OGE officials and in subsequent written explanation to
DoD OIG, OGE explained that with regard to DoD ethics programs:

   •	 they did not supervise DoD or its Components,

   •	 they did not decentralize the DoD ethics program or establish independent DoD Components,
      and

   •	 they had concurred with a DoD request to appoint a designated agency ethics official (DAEO)
      in each of the separate DoD Components.

The OGE also emphasized that, regardless of the separate DAEO structure, OGE “viewed DoD
as one agency” with the Secretary of Defense as the “head of the agency,” and that the separate
DAEO structure did not relieve the Secretary of Defense of supervisory responsibility for DoD
ethics programs.


Conclusion
The assessment team concluded that the AGEAR database was not complete, that required section
847 records were located in multiple and decentralized locations, and that the records were not
readily available for examination.

We concluded that AGEAR was of marginal value for management of DoD section 847 ethics
opinions, and, therefore, that DoD may not have fully complied with the intent of this law.

As a result, we could not use AGEAR to reliably determine the quantitative data requested by
the HASC.




                                                                   DODIG-2014-050 (Project No. D2013-D00SPO-0137.000) │ iii
                  Recommendation, Management Comments, and
                  Our Response
                  Recommendation a.
                  The Deputy Secretary of Defense seek clarification regarding the intent of Public Law 110-181
                  section 847 with respect to the requirement to retain ethics opinions in a centralized database
                  or repository—specifically whether the law intended a single central database or “multiple
                  ‘central’ databases.”


                  General Counsel of the Department of Defense on Behalf of the Deputy
                  Secretary of Defense
                  Management nonconcurred with the recommendation to seek clarification because they
                  asserted section 847 was clear. Despite their nonconcurrence, management acknowledged
                  that “the Department does not take the position that multiple databases or repositories
                  maintained by the various individual components…constitutes compliance with Section 847.”
                  In a March 12, 2014 memorandum, the DoD General Counsel noted that SOCO had recently
                  issued a memorandum to the Department DAEOs requesting that they upload historical records
                  into AGEAR from the date of section 847 enactment on January 28, 2008 until AGEAR
                  deployment on January 1, 2012.


                  Our Response
                  We note management’s nonconcurrence with our recommendations, but consider as
                  responsive management’s acknowledgement that multiple databases or repositories do not
                  constitute compliance with Section 847. We also agree with management’s position that all
                  section 847 requests for opinions, and their corresponding opinions, both predating and
                  postdating the effective date of AGEAR on January 1, 2012, should be entered into AGEAR. We
                  will request an update on this effort in 6 months.


                  Recommendation b.
                  The Deputy Secretary of Defense delegate to an appropriate DoD official/office the responsibility
                  and authority to centrally supervise Departmental section 847 compliance sufficient to meet the
                  intent of the law, and determine and assign the needed resources.


                  General Counsel of the Department of Defense on Behalf of the Deputy
                  Secretary of Defense
                  Management partially concurred with our recommendation and explained that the DoD SOCO
                  had been providing leadership, education, training, legal interpretation, and guidance regarding
                  Section 847 compliance since the law was enacted. Management also explained that SOCO
                  would continue to exercise this leadership role in the future, and asserted that delegating




iv │ DODIG-2014-050 (Project No. D2013-D00SPO-0137.000)
supervisory responsibility to another DoD official/office was unnecessary.           However,
management qualified SOCO’s leadership role and explained that SOCO was “not equipped,
nor should it be tasked with, discharging the ethics programs responsibilities of the separate
DAEO components.”


Our Response
We note management’s partial concurrence and consider it partially responsive. In particular,
we take note of management’s clarifying comments with respect to the SOCO role in
providing leadership, education, training, and legal interpretations and guidance regarding
Section 847 compliance. With respect to what management characterizes as “taking over
line supervision” or “delegating supervisor responsibility,” we agree with management that
SOCO does not now have, nor should be delegated this authority and we did not recommend
this. We also agree that “taking over line supervision” of the DAEOs or “delegating
supervisor responsibility [of the DAEOs to] another DoD official/office” would be unnecessary
and we did not recommend this, either.

Lines of supervision already exist. Pursuant to DoD Directive 5145.01, “General Counsel of the
Department of Defense,” and DoD Directive 5145.04, “Defense Legal Services Agency”, many lines
of supervision run through Defense Legal Services Agency to the DoD General Counsel. However,
others, such as the DoD OIG DAEO, do not. Therefore, to assist us in identifying and, if need be,
assessing the effectiveness of these lines of supervision, we request that, as a follow-up to this
review, the Department submit to the OIG, by organization, the position names (positions) of all
Department DAEOs and the Department positions to whom those DAEOs directly report, with the
exception of the DAEO for the DoD OIG.	


Recommendations Table
                                          Recommendations Requiring    No Additional Comments
   Office of Primary Responsibility          Additional Comment/        Required at this Time
                                                 Information
 Deputy Secretary of Defense           b.                              a.

Please provide comments by April 30, 2014




                                                                 DODIG-2014-050 (Project No. D2013-D00SPO-0137.000) │ v
                                    INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                   4800 MARK CENTER DRIVE
                                ALEXANDRIA, VIRGINIA 22350-1500


                                                                                     March 31, 2014

MEMORANDUM FOR DEPUTY SECRETARY OF DEFENSE
		             DIRECTOR, DEPARTMENT OF DEFENSE STANDARDS OF
		               CONDUCT OFFICE

SUBJECT:	 Ethics Requirements for Senior Defense Officials Seeking Employment with
          Defense Contractors (Report No. DODIG-2014-050)

We are providing this final report for review and comment.            We considered management
comments to a draft when preparing this final report.

We request additional comments and information by April 30, 2014, on Recommendation b.
Specifically, we request that as a follow-up to our review, and with the exception of the Designated
Agency Ethics Official (DAEO) for the DoD Office of Inspector General, the Department submit to
us, by organization, the position titles of all Department DAEOs, and the Department position
to whom those DAEOs directly report.

Copies of your comments must have the actual signature of the authorizing official for your
organization. We are unable to accept the / Signed / symbol in place of the actual signature. If
you arrange to send classified documents electronically, they must be sent over the SECRET
Internet Protocol Router Network (SIPR).

We appreciate the courtesies extended to our staff. Please direct questions to Mr. Joseph R. Oliva at
(703) 604-9466, or Joseph.Oliva@dodig.mil.




                                                                                              DODIG-2014-050 │ vii
Contents
Introduction______________________________________________________________________________1
Background_______________________________________________________________________________________1
    2008—“Section 847”________________________________________________________________________1
    Government Accountability Office Audit_ _________________________________________________2
    2010—DOD Office of Inspector General Report_ _________________________________________3
    2012—After Government Employment Advice Repository Mandatory Use____________5
    2012—DoD Office of Inspector General Follow-up_______________________________________5
    2012—House Armed Services Committee Report________________________________________5
Objective__________________________________________________________________________________________6
Scope and Methodology_________________________________________________________________________6

Observation______________________________________________________________________________9
Pre-2012 Records________________________________________________________________________________9
Post-2012 Records_____________________________________________________________________________ 11
Central Supervision and Oversight of Section 847 Compliance____________________________ 15
    U.S. Office of Government Ethics _________________________________________________________ 15
    National Security Agency _________________________________________________________________ 16
    Defense Logistics Agency _________________________________________________________________ 17
    Conclusion_ ________________________________________________________________________________ 17
Recommendation, Management Comments, and Our Response___________________________ 18

Appendixes
Appendix A. Prior Coverage__________________________________________________________________ 21
Appendix B. Acting DoD General Counsel Dell’Orto Letter to the Government
   Accountability Office, May 7, 2008_______________________________________________________ 23
Appendix C. Deputy Secretary of Defense Memorandum, September 19, 2011__________ 25
Appendix D. Response to DoD Office of Inspector General Follow-up Request___________ 27
Appendix E. Standards of Conduct Office Memorandum, September 10, 2013_ _________ 31
Appendix F. Business Rules for the After Government Employment
   Advice Repository System, September 6, 2013_________________________________________ 37




                                                                                                   DODIG-2014-050 │ ix
                     Contents (cont’d)

                     Appendix G. Office of Government Ethics Memorandum, November 12, 2013___________ 43
                     Appendix H. General Counsel of DoD Follow-up Response to DoD Office
                        of Inspector General Draft Report, March 12, 2014_____________________________________ 45

                     Management Comments_____________________________________________________ 51
                     General Counsel of the Department of Defense on Behalf of the Deputy Secretary of
                        Defense_____________________________________________________________________________________ 51

                     Acronyms and Abbreviations______________________________________________ 55




x │ DODIG-2014-050
                                                                                              Introduction




Introduction
Background
Members of Congress, Administration officials, various independent public policy
research organizations, and the media have periodically raised concern that some former
government officials, who left positions of significant contracting responsibility in the
Government and subsequently worked for government contractors, may have improperly
influenced the Government from their government contractor positions.

As a result, numerous government and non-government entities have reported extensively
on conflict of interest concerns. For more information on prior reporting regarding this
issue, please refer to Appendix A, “Prior Reporting” of this report.

In addition, Congress has periodically enacted legislation intended to provide transparency
with respect to former government officials who seek employment with government
contractors and to prevent conflict of interest.


2008—“Section 847”
On January 28, 2008, President George W. Bush signed Public Law 110-181, “The
National Defense Authorization Act for Fiscal Year 2008.” Section 847 of the law,
“Requirements for Senior Department of Defense Officials Seeking Employment with
Defense Contractors,” defined a “covered” official as:

         •	 A general or flag officer, member of the senior executive service, or Executive
            Schedule employee, who participated personally and substantially in an
            acquisition exceeding $10 million.

         •	 A program or deputy program manager, procuring or administrative
            contracting officer, source selection authority or source selection evaluation
            board member, or chief of a financial or technical evaluation team for a
            contract exceeding $10 million.

Additionally, the law also required that:

         •	 covered officials request written opinions regarding post-employment
            restrictions to activities that they may undertake on behalf of defense
            contractors prior to accepting position with those contractors,




                                                                                          DODIG-2014-050 │ 1
Introduction



                          •	 defense contractors ensure that covered officials have received the required
                            opinions before employing them,

                          •	 DoD ethics counselors provide written ethics opinions to covered officials not
                            later than 30 days after receiving requests,

                          •	 DoD retain each request for a written opinion, and each written opinion
                            provided, in a central database or repository for not less than 5 years, and

                          •	 the DoD Office of Inspector General (OIG) conduct periodic reviews to ensure
                            that written opinions are being provided and retained in accordance with the
                            requirements of the section.

                 Government Accountability Office Audit
                 In 2008, at the direction of Congress, the Government Accountability Office (GAO)
                 audit, Defense Contracting: Post-Government Employment of Former DoD Officials Needs
                 Greater Transparency (Report No. GAO-08-485, May 21, 2008), addressed the scope of
                 the conflict of interest transparency issue as it pertained to the Department of Defense.
                 The audit, using Defense Manpower Data Center and Internal Revenue Service data,
                 concluded that:

                          •	 During the period between 2004 and 2006, 52 major defense contractors
                            employed 2,435 former DoD senior and acquisition officials who served as
                            generals, admirals, senior executives, program managers, contracting officers,
                            or in other acquisition positions which made them subject to restrictions on
                            their post-DoD employment.

                          •	 While stipulating that the post-government hiring of the 2,435 former
                            officials may have been justified, the GAO audit estimated that, based on a
                            random sample, at least 422 of the 2,435 could have been working on defense
                            contracts directly related to their former DoD agencies. In addition, the
                            GAO estimated that at least nine of the officials could have worked on the
                            same defense contract over which they had previously exercised direct
                            oversight or decision-making authority.

                 The audit also concluded that information derived from contractor data regarding
                 the employment of former DoD officials varied significantly from information
                 derived from Internal Revenue Service and Defense Manpower Data Center data, with
                 contractor data identifying just 1,263—or only about half—of the 2,435 former officials
                 identified by the GAO as being employed by contractors. The audit explained that this
                 differential existed because:



2 │ DODIG-2014-050
                                                                                             Introduction



         •	 Legislation preceding section 847 did not require DoD officials or former
            officials to seek an opinion from a DoD ethics counselor before accepting
            employment with a defense contractor.

         •	 Legislation preceding section 847 did not require defense contractors to
            determine if prospective employees were DoD officials or former officials who
            were mandated to seek and receive an ethics opinion–nor were contractors
            required to ask for them.

         •	 No laws or regulations required DoD to maintain visibility of employment
            with defense contractors by former senior officials after they left government
            service.

         •	 DoD’s record-keeping for its written ethics opinions was decentralized at the
            many defense ethics offices that issued them.

In a May 7, 2008 letter offering technical comment on the GAO Audit Report,
Acting DoD General Counsel Daniel J. Dell’Orto—specifically referring to the section 847
“central database” provision—stated that there were numerous designated agency ethics
officials (DAEOs), each with “separate, independent authority,” and “accordingly, there
are, and must be, multiple ‘central’ databases,” with “thousands of post-employment
ethics advisory letters.” Notwithstanding his statement, Mr. Dell’Orto provided insight
into DoD General Counsel plans for implementing section 847 and explained:

         •	 His Standards of Conduct Office (SOCO) was attempting to establish “one
            global database” for “all” DoD post-employment records, and was working
            with information technology experts to develop a viable mechanism for
            collecting and retaining the information.

         •	 If DoD efforts to develop “one global database” were unsuccessful, then
            DoD would “rely on the existing system,” of “multiple ‘central’ databases.”

Mr. Dell’Orto also asserted that as contemplated by section 847, either the single “global
database” or the system of “multiple “central’ databases,” would allow the DoD IG to
efficiently retrieve required information for periodic DoD IG reviews. Mr. Dell’Orto’s
letter, in its entirety, is contained at Appendix B of this report.


2010—DoD Office of Inspector General Report
On June 18, 2010, in conjunction with its responsibilities under the law, the DoD OIG
issued report, Review of Department of Defense Compliance with Section 847 of the
National Defense Authorization Act for Fiscal Year 2008, (Report No. SPO-2010-003).




                                                                                          DODIG-2014-050 │ 3
Introduction



                 The report found that, although DoD disseminated information on section 847
                 requirements to promote compliance within DoD and the defense contracting community,
                 the Department had initiated, but not completed, development and implementation of
                 a central DoD repository to record requests for written opinions and to store copies of
                 opinion letters issued. As a result, section 847 record-keeping remained decentralized.
                 The DoD OIG therefore recommended that the Office of General Counsel (OGC) SOCO:

                         •	 Continue the development and implementation of a central DoD repository
                            in an expeditious manner in order to meet the statutory requirement.

                         •	 Ensure that all Component Ethics offices are informed regarding SOCO’s
                            development of a centralized database application, and their roles and
                            responsibilities for meeting the statutory requirement for a DoD-wide
                            central repository.

                         •	 Implement procedures to obtain from Component ethics offices copies of
                            requests for written opinions pursuant to section 847, as well as each written
                            opinion provided pursuant to such a request, until such time as the After
                            Government Employment Advice Repository (AGEAR) is operational.

                         •	 Ensure that these existing requests for written opinions and copies of
                            written opinions issued are transferred into AGEAR, at such time that
                            AGEAR is operational.

                 The DoD OGC concurred with the recommendations and stated that:


                         •	 The DoD had “multiple DAEOs” each with “separate, independent authority
                            and responsibility.”

                         •	 In 2008, they advised all Component DAEOs to retain all written requests and
                            opinions for at least 5 years to permit timely retrieval for periodic IG reviews.

                         •	 To facilitate the OIG review, they sent a data call to all DoD Components and
                            asked that the Components forward all existing section 847 records to the
                            DoD SOCO.

                         •	 They are working with information technology experts to fashion a viable
                            mechanism for transferring and retaining existing requests for written
                            opinions and copies of written opinions upon completion of AGEAR
                            operational tests and rollout.




4 │ DODIG-2014-050
                                                                                            Introduction



2012—After Government Employment Advice Repository
Mandatory Use
On September 19, 2011, Deputy Secretary of Defense William Lynn announced that
the Army OGC had developed AGEAR to “capture and store opinions required under
section 847;” designated the Secretary of the Army as the DoD Executive Agent to operate,
maintain, manage, and fund the system; and made DoD-wide AGEAR use mandatory
effective January 1, 2012.      Secretary Lynn’s memorandum did not assign central
supervisory responsibility for section 847 compliance by the DoD Components to any
DoD entity. Secretary Lynn’s memorandum is included at Appendix C of this report.


2012—DoD Office of Inspector General Follow-up
On March 27, 2012, in response to a formal DoD OIG follow-up inquiry, the DoD SOCO
Director stated:

              “…to ensure that pre-existing requests for written opinions and
              copies of written opinions issued are transferred into AGEAR, the
              implementation rollout includes a procedure and instructions
              on transferring and retaining this historical information
              within AGEAR.”

The Director also forwarded the AGEAR instruction developed to allow “any agency ethics
official” to input a historical opinion previously maintained outside AGEAR.

In reliance on the SOCO Director’s statement and the AGEAR rollout instruction, the
DoD OIG closed all further follow-up on the 2010 DoD IG report. The SOCO Director’s
remarks are included in their entirety at Appendix D of this report.


2012—House Armed Services Committee Report
On May 11, 2012, the House Armed Services Committee (HASC) Report on the National
Defense Authorization Act for Fiscal Year 2013 explained that the HASC wished to be
apprised of DoD’s “record of compliance with section 847 of Public Law 110-181,” and
therefore directed the DoD OIG to review “the database established pursuant to section
847 of Public Law 110-181.”

The HASC also requested that the DoD OIG include specified quantitative reporting data
as follows:

         •	 “the total number of opinions issued and




                                                                                        DODIG-2014-050 │ 5
Introduction



                         •	 the total number of opinions retained in accordance with section 847 of Public
                            Law 110-181; and

                         •	 any instances in which a request for a written opinion pursuant to section 847
                            of Public Law 110-181 lacked a corresponding written opinion, or

                         •	 in which the written opinion was not provided to the requesting official
                            or former official of the Department of Defense by the appropriate ethics
                            counselor within 30 days after the request for a written opinion.”


                 Objective
                 In accordance with section 847 of Public Law 110-181, additional direction specified in
                 the HASC Report on the National Defense Authorization Act For Fiscal Year 2013, and
                 consistent with our responsibilities under the Inspector General Act of 1978, as amended,
                 the objectives of our assessment were to:

                         •	 Determine whether written opinions were “being provided and retained
                            in accordance with the requirements of the section.” (Public Law 110-181
                            section 847 [b][2])

                         •	 Determine “the Department of Defense’s record of compliance with
                            section 847 of Public Law 110-181.” (HASC Report on the National Defense
                            Authorization Act For Fiscal Year 2013)

                         •	 Determine the quantitative data specified by the HASC, as outlined above.
                            (HASC Report on the National Defense Authorization Act For Fiscal
                            Year 2013)


                 Scope and Methodology
                 We conducted this assessment from April 2013 to March 2014 in accordance with
                 the Council of the Inspectors General on Integrity and Efficiency Quality Standards
                 for Inspection and Evaluation. Those standards require that we plan and perform the
                 assessment to obtain sufficient, appropriate evidence to provide a reasonable basis for
                 our observations and conclusions based on our assessment objectives. We believe that
                 the evidence obtained provides a reasonable basis for our observations and conclusions
                 based on our assessment objectives.

                 To achieve the assessment objectives, we analyzed relevant provisions of law,
                 congressional guidance, and professional standards; spoke with stakeholders at all
                 levels, including the Deputy Director for Compliance, United States Office of



6 │ DODIG-2014-050
                                                                                           Introduction



Government Ethics (OGE), the Director of the DoD OGC-SOCO, the Army Deputy General
Counsel (Ethics and Fiscal) (representing the DoD Executive Agent), congressional staff,
and others; we examined section 847 records which the Department retained both inside
and outside of AGEAR; and assessed data reliability and completeness to address the
quantitative data the HASC specified.




                                                                                       DODIG-2014-050 │ 7
                                                                                               Observation




Observation
The DoD did not retain all required section 847 records in its designated central
repository—the AGEAR.

This condition existed because the Department did not centrally supervise section
847 activities by its decentralized Components, implement the 2010 DoD IG report
recommendation to transfer historical records into AGEAR when the database became
operational, or comply with Deputy Secretary’s guidance making AGEAR use mandatory
as of January 1, 2012.

As a result, we concluded that AGEAR was of marginal value as a management control
system, and that DoD may not have fully complied with the intent of the law. Moreover,
we could not determine the quantitative data regarding ethics opinions requested by
the HASC.



Pre-2012 Records
Despite the SOCO Director’s March 27, 2012 assurance that AGEAR rollout procedures
included instructions to ensure historical records were transferred into AGEAR, our
examination of the AGEAR database found only limited records from January 28, 2008,
when section 847 became law, through December 31, 2011, after which AGEAR use
became mandatory.

Responding to our inquiries about this condition, SOCO acknowledged that they had not
implemented the 2010 DoD IG report recommendation and uploaded pre-2012 records.
SOCO explained that because of manpower and insufficient funding, they assigned the
task a “less-than-mission-critical priority,” and separately maintained pre-2012 opinions
in an electronic folder in their office. On June 28, 2013, we requested all such records.

On July 2, 2013, in response to our request, SOCO gave us a compact disc containing
251 electronic files. On August 5, 2013, SOCO provided an additional 71 files. We
examined all records and noted:

         •	 duplicate documents;

         •	 records with multiple other records imbedded in them;

         •	 general ethics opinion letters that seemed unrelated to section 847, and
            instead, seemed to address other provisions of post-government ethics law;

         •	 unsigned, undated, and potentially draft documents;


                                                                                            DODIG-2014-050 │ 9
Observation



                          •	 documents with multiple requests and opinions;

                          •	 requests without corresponding opinions or explanations as to why;

                          •	 opinions without corresponding requests; and

                          •	 various other recordkeeping inconsistencies suggesting a lack of active
                             supervision or quality control.

                 On August 6, 2013, we met with the SOCO Director to discuss our observations and
                 explain that as a result of quality control and decentralized recordkeeping issues, it
                 would be difficult for us to develop the data the HASC requested. With regard to
                 uploading pre-2012 opinions, the SOCO Director responded that SOCO must comply
                 with the law, but emphasized that:

                          •	 uploading prior opinions into AGEAR was an unfunded mandate the
                             SOCO Director believed unnecessary, and

                          •	 the SOCO could not spend time uploading opinions when they were in
                             furlough status.

                 The SOCO Director also questioned who and why someone would need prior records
                 uploaded, and explained that, given constrained resources, the SOCO director would
                 need an official request through both the DoD OIG and DoD OGC to upload the
                 historical records.

                 On September 10, 2013, responding to our further inquiry, the SOCO Director echoed
                 the May 2008 comments of the Acting DoD General Counsel concerning “multiple
                 ‘central’ databases.” Specifically, the SOCO Director said that there were 17 separate and
                 independent DAEOs, and explained that after section 847 was enacted in 2008:

                          •	 “SOCO had no way to instantaneously create a repository across the entire
                             Department.”

                          •	 While awaiting AGEAR, the Department had to rely on a “central database”
                             in each of the individual ethics offices.

                 The SOCO Director also explained that “while this less than perfect ‘central’ database”
                 in each of the individual ethics offices was “cumbersome,” it seemed sufficient to make
                 “Section 847 opinions available on call” and had met “the needs of the OIG in two earlier




10 │ DODIG-2014-050
                                                                                                                                 Observation



audits.”1 The SOCO Director’s remarks, in their entirety, are contained at Appendix E of
this report.

Notwithstanding the SOCO Director’s remarks, the pre-2012 records SOCO separately
retained outside AGEAR:

              •	 were not centrally located with other records,

              •	 were not readily available for examination, and

              •	 reflected significant data reliability and quality control issues.

As a result, we concluded the pre-2012 records SOCO maintained outside AGEAR were not
useful or reliable in our efforts to “review the database” established pursuant to section
847 as the HASC had requested, or to determine the quantitative data the HASC specified.


Post-2012 Records
In May 2013, responding to our request, the DoD AGEAR Executive Agent analyzed the
AGEAR database and addressed the quantitative data specified by the HASC. A graphic
presentation of the AGEAR analysis for the 16-month period beginning January 1, 2012,
when DoD-wide AGEAR use became mandatory, and ending May 3, 2013, when the
Executive Agent terminated the analysis, is presented in Table 1 below.

Table 1. DoD AGEAR Executive Agent Analysis – HASC Specified Data
                                                                                                             Opinions
                                     Total Opinion        Records Retained           Responses
              Action                                                                                         Exceeding
                                       Requests             in Database             Within 30 Days            30 Days
 Total Opinion Requests                    379                     379

 Requests Rejected                          64                     64               Not Applicable          Not Applicable

 Opinions Issued                           300                     300                     234                    66
 Responses Pending                          15                     15                        3                    12
  Total Records                                                    379                     237                    78

Source: DoD Executive Agent AGEAR data for the period January 1, 2012—May 3, 2013

The Executive Agent stated:

              •	 AGEAR is the statutorily-mandated database within DoD for post-government
                  employment opinions issued pursuant to Section 847.

	1	
      For further information on the Director’s reference to two earlier audits, see the “2010—Department of Defense Inspector
      General Report,” and “2012—DoD Inspector General Follow-up” in the Background section of this report.




                                                                                                                             DODIG-2014-050 │ 11
Observation



                             •	 Only requests for post-government employment opinions meeting the
                               criteria of section 847 are processed and stored in AGEAR.

                             •	 The vast majority of post-government employment opinions issued to DoD
                               officials and former officials were not issued pursuant to section 847 and are
                               not in AGEAR.

                             •	 Ethics counselors should reject requests that do not meet section 847 criteria.

                             •	 Rejection reasons include, but are not limited to, a requestor not meeting
                               the statutory definition of “covered DoD official,” or the requestor not having
                               an expectation of compensation from a DoD contractor for activities that the
                               official or former official might undertake on behalf of that contractor.

                 The Executive Agent explained that during the analysis period, DoD officials or former
                 officials submitted a total of 379 requests, DoD ethics counselors rejected 64 requests
                 and issued 300 opinions, and at the end of the analysis period, 15 requests awaited
                 action by an ethics official. Regarding the 78 requests which AGEAR indicated took
                 ethics counselors more than 30 days to process, the Executive Agent quantified reasons
                 as follows:

                 Table 2. Requests Exceeding 30 Days
                      Number                                         Reason
                                 The requests should have been rejected because they did not meet section
                        25       847 criteria for processing and retention in AGEAR.
                                 The requests were forwarded to multiple ethics officials, which potentially
                        20       contributed to the delay.
                                 The requests did not contain sufficient information for the ethics official to
                        13       provide a meaningful post government employment analysis and opinion.
                        9        The reason for the delay was not apparent.
                                 The ethics official actually rejected the request or issued the opinion within
                        7        30 days, but did properly close the action within AGEAR.
                                 The requests were historical opinions completed prior to 2012 and uploaded
                        3        into AGEAR later for retention.
                        1        The record was a duplicate request.
                        78       Total requests indicated as exceeding 30 days

                 Source: DoD Executive Agent AGEAR data for the period January 1, 2012—May 3, 2013




12 │ DODIG-2014-050
                                                                                              Observation



The Executive Agent noted that, with regard to timeliness, system limitations, and
accountability for compliance:

         •	 “Cyber-security restrictions contribute to delays in issuance of opinions and
            audit trail difficulty. As AGEAR is a web-based system available to the public,
            cyber-security restrictions prevent requesters from uploading supporting
            documents with their request.        Ethics officials are required to obtain
            additional information outside of AGEAR, such as resumes and position
            descriptions, which cuts into the 30-day clock. Additionally, requesting and
            obtaining information outside of AGEAR often means ethics officials forget
            or fail to properly create an audit trail in AGEAR to show that they requested
            additional information and/or to show when they received sufficient
            information to prepare an opinion. Of course, the lack of an audit trail in
            AGEAR makes it difficult to discern whether an opinion was issued within
            30 days of receipt of a complete request.”

         •	 “AGEAR mandatory use in DoD became effective January 1, 2012. Many
            ethics officials are still relatively inexperienced in using the system. To
            ensure better accountability with respect to Section 847 compliance, DoD
            anticipates issuing guidance to ethics officials concerning proper AGEAR
            usage, particularly with regard to rejecting requests that do not meet
            Section 847 criteria, and to creating a clear audit trail within AGEAR
            establishing when requests for additional information are made and when
            ethics officials receive sufficient information to prepare a Section 847
            opinion.”

Following through on the anticipated guidance noted above, on September 6, 2013—and
citing the ongoing DoD OIG assessment—the Executive Agent issued “Business Rules for
Use of the After Government Employment Advice Repository (AGEAR) System.” The Business
Rules in their entirety are attached at Appendix F of this report.

Regarding the Executive Agent’s data analysis, the GAO guide, Assessing the Reliability
of Computer-Processed Data, July 2009, explains that whether management provides
information to evaluators, or evaluators extract information independently, evaluators
should perform a data reliability assessment to determine whether the data was
sufficiently reliable for the purpose of the review. The guide defines data reliability
as information that is complete, accurate, and consistent. To further analyze whether
information in the AGEAR database was complete, we organized the 379 records




                                                                                          DODIG-2014-050 │ 13
Observation



                 analyzed by the AGEAR Executive Agent to determine the extent of separate Component
                 activity. The results are reflected in Table 3 below.

                 Table 3. Analysis of Section 847 Activity by the Seventeen Separate DoD Components
                                          DoD Component                         Records          Percent
                      Department of the Army                                      140              36.9
                      Department of the Navy                                      124              32.7
                      Office of the Secretary of Defense                          50               13.2
                      Defense Threat Reduction Agency                             27               7.1
                      Department of the Air Force                                 24               6.3
                      National Geospatial-Intelligence Agency                      4               1.1
                      Defense Logistics Agency                                     4               1.1
                      Defense Intelligence Agency                                  3               0.8
                      Uniformed Services University of Health Science              2               0.5
                      Defense Information Systems Agency                           1               0.3
                      Defense Commissary Agency                                    0               0.0
                      Defense Contract Audit Agency                                0               0.0
                      Defense Finance and Accounting Service                       0               0.0
                      Defense Security Service                                     0               0.0
                      National Security Agency                                     0               0.0
                      Department of Defense Inspector General                      0               0.0
                      Armed Services Board of Contract Appeals                     0               0.0
                       Total                                                      379             100.0

                 Source: DoD Executive Agent AGEAR data for the period January 1, 2012 – May 3, 2013

                 Our analysis indicated that more than 80 percent of all section 847 activity was
                 accounted for by only three Components—the Army, Navy, and the Office of the
                 Secretary of Defense.           Our analysis also indicated significantly less activity by the
                 Air Force, when compared to the Army and Navy, and limited or no activity by the
                 Defense Logistics Agency (DLA) or the National Security Agency (NSA), organizations
                 with substantial contracting activity.           Consequently, we concluded that the AGEAR
                 database did not contain all required section 847 records, and as a result, that AGEAR
                 was of marginal value as a central management control system to determine whether
                 opinions were being provided and retained in accordance with the law.




14 │ DODIG-2014-050
                                                                                               Observation



Central Supervision and Oversight of
Section 847 Compliance
In the SOCO Director’s September 10, 2013, memorandum discussed earlier (see
Appendix E), the SOCO Director agreed that the apparent lack of section 847 opinions
posted in AGEAR by two large agencies was troubling. However, the SOCO Director:

         •	 “Fundamentally” disagreed that the Secretary of Defense, SOCO, or some
           other centralized entity reporting to the Secretary “should be responsible for
           ensuring compliance with Section 847 across the entirety of DoD.”

         •	 Explained that the Federal regulatory scheme formalized decentralization
           of the DoD ethics program; that accordingly, the OGE designated
           17 “independent” DoD Components responsible to OGE for performance,
           and that each independent DoD Component was subject to OGE oversight
           and audit.

         •	 Noted that in the “ethics realm,” for personnel assigned outside of the
           Office of the Secretary of Defense, the Secretary of Defense’s role was
           generally one of “policy setting” rather than exercising “central supervisory
           authority,” and that the only centralized activities specified by section 847
           were “recordkeeping,” and the related IG review function superimposed on
           the existing decentralized ethics program.

         •	 Recommended that if the DoD OIG wanted to find out why two large
           agencies with acquisition responsibilities seemed to have unrealistically low
           numbers, the OIG confer directly with those entities.

While asserting SOCO lacked central supervisory authority, the SOCO Director accepted
responsibility within SOCO’s policy setting role to help resolve inconsistency in compliance
among DoD Components. Accordingly, the SOCO Director suggested that SOCO ask OGE
to perform section 847 compliance reviews during routine OGE audits of individual DoD
Component post-government advice programs.


U.S. Office of Government Ethics
On October 25, 2013, we met with the OGE Deputy Director for Compliance and other
senior OGE officials to discuss the SOCO assertions and suggestions. OGE disagreed
with the SOCO assertions that, in the “ethics realm,” the Secretary of Defense had
no responsibility for supervising “independent” DoD Components or that OGE had
designated 17 independent DoD Components responsible to OGE for ethics performance.




                                                                                           DODIG-2014-050 │ 15
Observation



                 The OGE explained that, with regard to the individual DoD Components, they had
                 concurred with a DoD request to establish a Designated Agency Ethics Official (DAEO)
                 in each. Nonetheless, OGE emphasized that, despite the separate DAEO structure:

                          •	 OGE “viewed DoD as one agency,”

                          •	 OGE considered the Secretary of Defense as the “head of the agency,” and

                          •	 the separate DAEO structure did not relieve the Secretary of Defense of
                             responsibility for supervising DoD ethics programs.

                 Regarding the SOCO Director’s suggestion to the DoD OIG assessment team that OGE
                 perform section 847 compliance reviews during routine OGE audits of DoD Components,
                 OGE explained that they were a relatively small organization with approximately
                 63 people currently “on-board” to oversee the activities of more than 5,600 ethics
                 officials across the entire executive branch. As a result, OGE did not have the resources
                 to oversee section 847 compliance in 17 separate DoD Components. Further, OGE
                 questioned whether they had the authority to assess DoD section 847 compliance,
                 since the law pertained exclusively to DoD. However, OGE pointed out that the DoD
                 Inspector General did have such authority.

                 In a follow-up letter to confirm its position, the OGE OGC provided the following
                 observations regarding Department compliance with section 847:

                          •	 Neither the National Defense Authorization Act for FY 2008 nor the Ethics in
                             Government Act of 1972 vested the OGE with responsibility for overseeing the
                             Department’s compliance with section 847, “including retaining a database of
                             Department opinions.”

                          •	 “Section 847 (b) (1) of the National Defense Authorization Act expressly
                             provided that the centralized database of the Department’s opinions would
                             be retained “by the Department of Defense.”

                 The letter, in its entirety, is included at Appendix G of this report.


                 National Security Agency
                 In communication with the NSA DAEO to determine why they were not retaining section
                 847 records in AGEAR, the DAEO explained that, although the NSA provided “written
                 ethics advice to all…seniors who expect to work for contractors” and kept “internal
                 folders,” for those records, the NSA did not use AGEAR because of the following separate
                 provision of law:




16 │ DODIG-2014-050
                                                                                          Observation



           50 USC § 3605. Disclosure of Agency’s organization, function,
           activities, or personnel—“…nothing in this act or any other law...
           shall be construed to require the disclosure of the organization or
           any function of the National Security Agency, or any information
           with respect to the activities thereof, or of the names, titles,
           salaries, or number of persons employed by such agency.”


Defense Logistics Agency
The DLA is a large defense combat logistics support organization with $44  billion in
annual sales and revenue, has 27,000 employees worldwide, supports 2,250 weapons
systems, manages 9 supply chains with more than 5 million items, and processes more
than 9,000 contract actions every day.

We met with the DLA Deputy DAEO in the OGC to determine how DLA was managing
its ethics opinion program and to determine why DLA was not retaining required
section 847 records in AGEAR. The Deputy DAEO explained that a “covered official”
applied to all employees “involved with 10 million dollar programs or contracts,” and
that he was not aware of how many $10 million DLA contracts were issued. He also
noted that while there were many $10 million contracts at DLA and many
DLA employees at the GS-12, GS-13, and GS-14 level involved with them, DLA did
not issue many section 847 opinions to employees other than general officers or
department managers. The Deputy DAEO acknowledged that DLA was not using AGEAR
and explained:

         •	 They were not using AGEAR because they were under the impression SOCO
           had placed AGEAR “on hold.”

         •	 Even though most opinions were written in the field, they were all sent to
           Headquarters for retention in the DLA repository.

         •	 The DLA would immediately begin using AGEAR.


Conclusion
The OGE OGC and DoD OGC SOCO position on the meaning of “central supervision”
and the section 847 requirement for a “central database” differed. The OGE OGC
viewed DoD as a single agency with the Secretary of Defense responsible for supervising
all DoD ethics programs, and interpreted section 847 as requiring the DoD to maintain
a “single” central database for all required section 847 opinions.




                                                                                      DODIG-2014-050 │ 17
Observation



                 Conversely, the DoD OGC SOCO took the position that:

                          •	 The Secretary of Defense did not have central supervisory authority over
                             DoD ethics programs and compliance with section 847.

                          •	 The Secretary of Defense’s role in the area of ethics was only one of
                             policy setting.

                          •	 DoD could have section 847 records located in multiple locations.

                 Notwithstanding this difference, the AGEAR database was incomplete, contained
                 inconsistent data, and consequently we could not:

                          •	 be certain that the data provided by the AGEAR Executive Agent in
                             Tables 1 and 2, addressing the quantitative data requested by the HASC,
                             was complete; nor

                          •	 conclude that AGEAR provided a centralized repository/database of written
                             ethics opinions, in accordance with the requirements of section 847.

                 As a result, we concluded that AGEAR was of marginal value for management of DoD
                 section 847 ethics opinions, and therefore, that DoD may not have fully complied with
                 the intent of this law.


                 Recommendation, Management Comments, and
                 Our Response

                          Recommendation a.
                          The Deputy Secretary of Defense seek clarification regarding the intent
                          of Public Law 110-181 section 847 with respect to the requirement
                          to retain ethics opinions in a “centralized database or repository,”
                          specifically whether the law intended a single central database or
                          “multiple ‘central’ databases.”


                 General Counsel of the Department of Defense on Behalf of the Deputy
                 Secretary of Defense
                 Management nonconcurred with our recommendation.            They explained that there
                 was no need to seek clarification of the law because section 847 was clear. Despite
                 their nonconcurrence, management acknowledged that “the Department does not




18 │ DODIG-2014-050
                                                                                           Observation



take the position that multiple databases or repositories maintained by the various
individual components…constitutes compliance with Section 847.” In a March 12, 2014
memorandum, the DoD General Counsel stated that SOCO had recently issued a
memorandum to the Department DAEOs requesting that they upload historical
records into AGEAR from the date of section 847 enactment on January 28, 2008
until AGEAR deployment on January  1,  2012.            Management comments from the
DoD General Counsel, on behalf of the Deputy Secretary of Defense, are included in
their entirety in the Management Comments Section of this report. The DoD General
Counsel follow-up response is included at Appendix H.


Our Response
We note management’s nonconcurrence with our recommendation, but consider as
responsive management’s acknowledgement that multiple databases or repositories
do not constitute compliance with section 847.           We also acknowledge that, on
February 26, 2014, prior to the publication of this report, the SOCO Director, in
a memorandum to Department DAEOs, asked the DAEOs to upload into AGEAR
“historical Section 847 documents, meaning those requests and opinions collected
from the date of enactment of Section 847 (January 28, 2008) until deployment of
AGEAR on January 1, 2012.” (The DoD General Counsel’s memorandum, in its entirety,
is included at Appendix H of this report.)

We agree that maintaining separate databases does not constitute compliance with
section 847, and that all section 847 requests and opinions, both predating and
postdating the effective date of AGEAR on January 1, 2012, should be entered into AGEAR.
We will request an update on this effort in 6 months.



         Recommendation b.
         Deputy Secretary of Defense delegate to an appropriate DoD official/
         office the responsibility and authority to centrally supervise
         Departmental section 847 compliance sufficient to meet the intent of
         the law, and determine and assign the needed resources.


General Counsel of the Department of Defense on Behalf of the Deputy
Secretary of Defense
Management partially concurred with our recommendation and explained that the
DoD SOCO had been providing leadership, education, training, legal interpretation, and




                                                                                       DODIG-2014-050 │ 19
Observation



                 guidance regarding Section 847 compliance since the law was enacted. Management
                 also explained that SOCO would continue to exercise this leadership role in the future,
                 and asserted that delegating supervisory responsibility to another DoD official/office
                 was unnecessary. However, management qualified SOCO’s leadership role and explained
                 that SOCO was “not equipped, nor should it be tasked with, discharging the ethics
                 programs responsibilities of the separate DAEO components.”


                 Our Response
                 We note management’s partial concurrence and consider it partially responsive. In
                 particular, we take note of management’s clarifying comments with respect to the
                 SOCO role in providing leadership, education, training, and legal interpretations and
                 guidance regarding Section 847 compliance.  With respect to what management
                 characterizes in their comments as “taking over line supervision” or “delegating
                 supervisor responsibility,” we agree with management that SOCO does not now have,
                 nor should be delegated this authority and we did not recommend this.  We also
                 agree that    “taking over line supervision” of the DAEOs or “delegating supervisor
                 responsibility [of the DAEOs to] another DoD official/office” would be unnecessary and
                 we did not recommend this, either. 

                 Lines of supervision already exist.  Pursuant to DoD Directive 5145.01, “General
                 Counsel of the Department of Defense,” and DoD Directive 5145.04, “Defense Legal
                 Services Agency,” many lines of supervision run through Defense Legal Services
                 Agency to the DoD General Counsel.  However, others, such as the DoD OIG DAEO, do
                 not. (None the less, as previously mentioned, DoD General Counsel stated that SOCO
                 had recently issued a memorandum to the Department DAEOs requesting that they
                 upload historical records into AGEAR from the date of section 847 enactment on
                 January 28, 2008 until AGEAR deployment on January 1, 2012. See Appendix H.)
                 Therefore, to assist us in identifying and, if need be, assessing the effectiveness of these
                 lines of supervision, we request that, as a follow-up to this review, the Department
                 submit to the OIG, by organization, the position names (positions) of all Department
                 DAEOs and the Department positions to whom those DAEOs directly report, with
                 the exception of the DAEO for the DoD OIG.




20 │ DODIG-2014-050
                                                                                         Appendixes




Appendix A
Prior Coverage
During the last 6 years the Government Accountability Office (GAO) and DoD
Inspector General (IG) have issued four reports discussing DoD’s post-government
employment of former DoD officials, ethics programs, and compliance with Section 847.
Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.
Unrestricted DoD IG reports can be accessed at http://www.dodig.mil. In addition,
during the past 6 years the Congressional Research Service (CRS), the Under
Secretary of Defense for Acquisition, Technology, and Logistics (USD [AT&L]), and the
National Academy of Public Administration (NAPA) have issued reports discussing
post-employment laws and restrictions.


GAO
GAO Report No. GAO-09-591, “Defense Contracting Integrity: Opportunities Exist to
Improve DOD’s Oversight of Contractor Ethics Programs,” September 22, 2009

GAO Report No. GAO-08-485, “Defense Contracting: Post-Government Employment of
Former DOD Officials Needs Greater Transparency,” May 21, 2008


DoD IG
DoD IG Report No. DODIG-2013-039, “Defense Advanced Research Projects Agency’s
Ethics Program Met Federal Government Standards,” January 24, 2013

DoD IG Report No. SPO-2010-003, “Review of DoD Compliance with Section 847 of the
NDAA for FY 2008,” June 18, 2010


Congressional Research Service (CRS)
CRS Report No. R42728, “Post-Employment, ‘Revolving Door,’ Laws for Federal
Personnel,” September 13, 2012


Under Secretary of Defense for Acquisition, Technology, and
Logistics (USD [AT&L])
USD (AT&L) DoD Panel on Contracting Integrity Report, “Review of Post-Employment
Restrictions Applicable to the DoD,” May 9, 2011




                                                                                    DODIG-2014-050 │ 21
Appendixes



                 USD (AT&L) Report, “Panel on Contracting Integrity 2010 Report to Congress,”
                 January 28, 2011

                 USD (AT&L) Report, “Panel on Contracting Integrity 2009 Report to Congress,” Undated

                 USD (AT&L) Report, “Panel on Contracting Integrity 2008 Report to Congress,”
                 January 5, 2009


                 National Academy of Public Administration (NAPA)
                 NAPA Report, “Independent Assessment of the Department of Defense Review of
                 Post-Employment Restrictions,” February 2012 (Mandated by the Fiscal Year 2010
                 National Defense Authorization Act)




22 │ DODIG-2014-050
                                                          Appendixes




Appendix B
Acting DoD General Counsel Dell’Orto Letter to the
Government Accountability Office, May 7, 2008




                                                     DODIG-2014-050 │ 23
Appendixes



                 Acting DoD General Counsel Dell’Orto Letter to the
                 Government Accountability Office, May 7, 2008 (cont’d)




24 │ DODIG-2014-050
                                               Appendixes




Appendix C
Deputy Secretary of Defense Memorandum,
September 19, 2011




                                          DODIG-2014-050 │ 25
                                                   Appendixes




Appendix D
Response to DoD Office of Inspector General
Follow-up Request




                                              DODIG-2014-050 │ 27
Appendixes



                 Response to DoD Office of Inspector General
                 Follow-up Request (cont’d)




28 │ DODIG-2014-050
                                                   Appendixes



Response to DoD Office of Inspector General
Follow-up Request (cont’d)




                                              DODIG-2014-050 │ 29
                                               Appendixes




Appendix E
Standards of Conduct Office Memorandum,
September 10, 2013




                                          DODIG-2014-050 │ 31
Appendixes



                 Standards of Conduct Office Memorandum,
                 September 10, 2013 (cont’d)




32 │ DODIG-2014-050
                                               Appendixes



Standards of Conduct Office Memorandum,
September 10, 2013 (cont’d)




                                          DODIG-2014-050 │ 33
Appendixes



                 Standards of Conduct Office Memorandum,
                 September 10, 2013 (cont’d)




34 │ DODIG-2014-050
                                               Appendixes



Standards of Conduct Office Memorandum,
September 10, 2013 (cont’d)




                                          DODIG-2014-050 │ 35
                                                          Appendixes




Appendix F
Business Rules for the After Government Employment
Advice Repository System, September 6, 2013




                                                     DODIG-2014-050 │ 37
Appendixes



                 Business Rules for the After Government Employment
                 Advice Repository System, September 6, 2013 (cont’d)




38 │ DODIG-2014-050
                                                            Appendixes



Business Rules for the After Government Employment
Advice Repository System, September 6, 2013 (cont’d)




                                                       DODIG-2014-050 │ 39
Appendixes



                 Business Rules for the After Government Employment
                 Advice Repository System, September 6, 2013 (cont’d)




40 │ DODIG-2014-050
                                                            Appendixes



Business Rules for the After Government Employment
Advice Repository System, September 6, 2013 (cont’d)




                                                       DODIG-2014-050 │ 41
                                               Appendixes




Appendix G
Office of Government Ethics Memorandum,
November 12, 2013




                                          DODIG-2014-050 │ 43
                                                     Appendixes




Appendix H
General Counsel of DoD Follow-up Response to
DoD Office of Inspector General Draft Report,
March 12, 2014




                                                DODIG-2014-050 │ 45
Appendixes



                 General Counsel of DoD Follow-up Response to
                 DoD Office of Inspector General Draft Report,
                 March 12, 2014 (cont’d)




46 │ DODIG-2014-050
                                                     Appendixes



General Counsel of DoD Follow-up Response to
DoD Office of Inspector General Draft Report,
March 12, 2014 (cont’d)




                                                DODIG-2014-050 │ 47
Appendixes



                 General Counsel of DoD Follow-up Response to
                 DoD Office of Inspector General Draft Report,
                 March 12, 2014 (cont’d)




48 │ DODIG-2014-050
                                                     Appendixes



General Counsel of DoD Follow-up Response to
DoD Office of Inspector General Draft Report,
March 12, 2014 (cont’d)




                                                DODIG-2014-050 │ 49
                                              Management Comments




Management Comments
General Counsel of the Department of Defense on
Behalf of the Deputy Secretary of Defense




                                                    DODIG-2014-050 │ 51
Management Comments



                 General Counsel of the Department of Defense on
                 Behalf of the Deputy Secretary of Defense (cont’d)




52 │ DODIG-2014-050
                                                 Management Comments



General Counsel of the Department of Defense on
Behalf of the Deputy Secretary of Defense (cont’d)




                                                       DODIG-2014-050 │ 53
                                                        Acronyms and Abbreviations




Acronyms and Abbreviations
AGEAR After Government Employment Advice Repository
 DAEO Designated Agency Ethics Official
  DLA Defense Logistics Agency
  GAO Government Accountability Office
 HASC House Armed Services Committee
  NSA National Security Agency
  OGC Office of General Counsel
  OGE Office of Government Ethics
 SOCO Standards of Conduct Office




                                                      Project No. D2014-D00SPO-0067.000 │ 55
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                            DoD Hotline
                           dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
